WAIVER
SUPREME COURT OF TIIE UNITED STATES
Supreme Court Case No

Bridget Alex, et al.

20-262
T-Mobile USA, Incorporated, et al.

(Petitioner)

(R espondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
I=J There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
T-MOBILE US, INC., T-MOBILE USA, INC., T-SYSTEMS NORTH AMERICA INC., AND DEUTSCHE TELEKOM NORTH AMERICA INC.

EJ I am a member of the Bar of the Supreme Court of the United States.
O I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date-

Is/ Stephanie D. Clouston

10/02/2020

(Type or print) Name

Stephanie D. Clouston
Mr.

J Ms.

Mrs.

J Miss

Alston & Bird LLP
Address Chase Tower, 2200 Ross Avenue, Suite 2300
Dallas, TX
zip 75201
City & State
stephanie.clouston@alston.com
Phone 214-922-3403
Firm

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: The Pittman Law Firm, P.C., 100 Crescent Court, Suite 700, Dallas, Texas 75201

